App. 1
Filed 10/03/19 by Clerk of Supreme Court

IN THE SUPREME COURT
STATE OF NORTH DAKOTA
2019 ND 245
Fernando A. Ramirez,

Plaintiff and Appellant

v.
Dave Houge,

Defendant and Appellee

and
Rod Didier,

Defendant

No. 20190120
Appeal fiom the District Court of Stutsman County, Southeast Judicial
District, the Honorable Troy J LeFevre, Judge.
AFFIRMED.
Per Curiam.
Fernando A. Ramirez, Jamestown, N.D., plaintiff and appellant; submitted on
brief.
Lawrence P. Kropp, Jamestown, N.D., for defendant and appellee Dave Houge;
submitted on brief.

App. 2
Ramirez v. Houge
No. 20190120
Per Curiam.
Fernando Ramirez appeals from a judgment denying his claims against
Dave Houge and Rod Didier and awarding attorney's fees, costs and
disbursements to the defendants. Ramirez commenced this action alleging the
defendants were responsible for the disappearance of and injuries to his cats,
seeking the return of two cats, and requesting unspecified damages for injurie
s
to another cat and $20,000 for alleged costs of a fence he installed on
his
property. Ramirez argues the district court erred in denying his claims.
We summarily affirm under N.D.R.App.P. 35.1(a)(1), (2), and (4).
Because Ramirez's appeal is frivolous, we award Houge $400 of fees incurre
d
on appeal. See N.D.R.App.P. 38 ("If the court determines that an appea
l is
frivolous . . . it may award just damages and single or double costs, including
reasonable attorney's fees.").
[113] Gerald W. VandeWalle, C.J.
Jon J. Jensen
Lisa Fair McEvers
Daniel J. Crothers
Jerod E. Tufte

1

Ramirez v. Houge, et al., Supreme Court No. 20190120

https://mail.aol.com/webmail-std/en-us/PrintMessage

App. 12
/s/ Sarah Erck
Deputy Clerk
North Dakota Supreme Court

pc:

Lawrence P. Kropp
The Honorable Troy J. LeFevre

This email and any transmitted. files attached are intended solely for the use of the individual or entity to
which they are addressed, and may be confidential under the law. If you have received this email in error
please notify the originator of the message.

2 of 2

12/26/2019, 6:29 PM

